U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Alex Cori Tribue v. United States, No. 20-6054
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 6,
2020. The government’s response is now due, after one extension, on January 8, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 8, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-6054
TRIBUE, ALEX CORI
USA

THOMAS A. BURNS
BURNS, P.A.
301 WEST PLATT STREET
SUITE 137
TAMPA, FL 33606
813-642-6350
TBURNS@BURNSLAWPA.COM
CONRAD BENJAMIN KAHN
FEDERAL DEFENDER ATTORNEY
201 S. ORANGE AVE.
STE 300
ORLANDO, FL 32801
407-648-6338
CONRAD_KAHN@FD.ORG

